Nos. 20-512, 20-520

IN THE

'uprente Court of tbe ainiteb Otateo
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
Petitioner,
v.
SHAWNE ALSTON, et al.,
Respondents.
AMERICAN ATHLETIC CONFERENCE, et al.,
Petitioners,
v.
SHAWNE ALSTON, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
BRIEF OF AMICI CURIAE
ANTITRUST ECONOMISTS
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,965 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 18, 2020.

Colin Casey NYogan
Wilson-Epes Printing Co., Inc.

